Capital Case
Execution Scheduled Sept. 24, 2020
Case No. ________________

In the Supreme Court of the United States
Christopher André Vialva,
Petitioner,
v.
United States of America,
Respondent.
______________________________
On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Fifth Circuit

__________________________________________
EMERGENCY APPLICATION FOR A STAY OF EXECUTION
[Execution Scheduled for Sept. 24, 2020 at 6:00 p.m.]
To the Honorable Samuel Alito, Jr., Associate Justice of the Supreme Court of
the United States and Circuit Justice for the Fifth Circuit:
Petitioner, Christopher André Vialva, respectfully requests a stay of his
execution, which is scheduled for September 24, 2020 at 6:00 p.m. Mr. Vialva asks
the Court to stay his execution to preserve the Court’s jurisdiction to review his
contemporaneously filed petition for a writ of certiorari to the United States Court of
Appeals for the Fifth Circuit raising two questions:

1

1.

Does the Federal Death Penalty Act’s requirement of implementation in
the manner prescribed by state law govern a federal district court’s
implementation of its judgment imposing death?

2.

If not, what law governs?
REASONS FOR GRANTING THE STAY

“To obtain a stay pending the filing and disposition of a petition for writ of
certiorari, an applicant must show (1) a reasonable probability that four Justices will
consider the issue sufficiently meritorious to grant certiorari; (2) a fair prospect that
a majority of the Court will vote to reverse the judgment below; and (3) a likelihood
that irreparable harm will result from the denial of a stay.” Hollingsworth v. Perry,
558 U.S. 183, 190 (2010). “[I]n a close case it may [also] be appropriate to balance the
equities, to assess the relative harms to the parties as well as the interests of the
public at large.” Indiana State Police Pension Trust v. Chrysler, LLC, 556 U.S. 960
(2009) (internal quotations omitted). Those standards are met here.
I.

There Is a Reasonable Probability This Court Will Grant Certiorari.
This case presents the Court with its first opportunity to construe the meaning

and scope of the Federal Death Penalty Act’s (“FDPA”) requirement that federal
executions be implemented in the manner prescribed by the law of the state in which
the judgment was imposed. Specifically, the question is what law, if any, applies to
the date-setting and warrant requirements of a federal execution. This is an
“important question of federal law that has not been, but should be, settled by this
Court.” Sup. Ct. R. 10(c). The Court has not addressed this aspect of the FDPA.

2

In the absence of guidance, the circuit courts have struggled to answer what
constitutes “state law” under the FDPA and which provisions of state law a court and
the Government are bound to follow. Sup. Ct. R. 10(a). Justice Sotomayor noted,
“[W]ith additional federal executions scheduled in the coming months, the
importance of clarifying the FDPA’s meaning remains. I believe that this Court
should address this issue in an appropriate case.” Mitchell v. United States, __ S. Ct.
__, 2020 WL 5016766, *1 (Aug. 25, 2020). This is such a case.
This case does not raise the same questions as Mitchell and other cases
interpreting the FDPA in the courts of appeals. A brief review of those cases is
warranted to show the distinction between the prior decisions and this case.
The D.C. Circuit recently addressed the scope of the FDPA in response to a
challenge specifically to execution-chamber procedures the BOP intended to use. In
re Fed. Bureau of Prisons’ Execution Protocol Cases, 955 F.3d 106, 109 (D.C. Cir.
2020). The result was a sharply divided opinion in which the three judges reached
three different interpretations of the FDPA. Two of the judges rejected the argument
that the FDPA’s language requires adherence only to the top-line method of execution
provided by state law. Id. Judge Rao concluded “the FDPA also requires the federal
government to follow execution procedures set forth in state statutes and regulations,
but not execution procedures set forth in less formal state execution protocols.” Id. at
112. Judge Tatel “agree[d] with Judge Rao that the term ‘manner’ refers to more than
just general execution method.” Id. at 146 (Tatel, J., dissenting). Only Judge Katsas
believed that “manner” referred solely to the choice of execution method, such as

3

lethal injection versus hanging. Judge Tatel similarly rejected Judge Katsas’s limited
definition of “manner.” Id. at 146 (“I agree with Judge Rao that the term ‘manner’
refers to more than just general execution method.”) (Tatel, J., dissenting).
In a Seventh Circuit case, family members of the victims sought an injunction
to allow them to attend the prisoner’s execution. The protocol of Arkansas, where the
prisoner had been sentenced to death, provided the victims’ families’ right to attend.
Peterson v. Barr, 965 F.3d 549 (7th Cir. 2020). The Seventh Circuit held § 3596(a)’s
reference to “manner prescribed by the law” does not refer to the “details” of the
state’s execution protocol “such as witnesses.” Id. at 554.
More recently, the Ninth Circuit “assume[d] without deciding that the
[Arizona] Department [of Corrections] Order Manual constitutes ‘law of the State’ for
purposes of the FDPA and the Judgment.” United States v. Mitchell, Case No. 2099009, 2020 WL 4815961, *2 (9th Cir. Aug. 19, 2020). Purporting to decide nothing,
the Ninth Circuit effectively endorsed an interpretation of applicable state law
broader than the D.C. Circuit’s. The interpretation encompassed at least portions of
Arizona’s protocol within its understanding of the law of the state.
A Pennsylvania district court provided the most salient interpretation of §
3596(a). United States v. Hammer, 121 F. Supp. 2d 794 (M.D. Pa. 2000). The court
held “[i]t is clear . . . that the sentence of death must be implemented in a manner
consistent with the law of the Commonwealth of Pennsylvania.” Id. at 797. The court
distinguished between the imposition of a sentence and the implementation of a
sentence. It concluded the word “impose” relates to the adjudication of the sentence

4

by the court while “implement” refers to the process for carrying out the sentence. See
id. at 798 (“‘Implement’ is defined as ‘to give practical effect to and ensure of actual
fulfillment by concrete measures.’”) (citing Webster’s Third New International
Dictionary (1961)). The court held “[t]he implementation of the death sentence
involves a process which includes more than just the method of execution utilized.”
Id. The court concluded “the law of Pennsylvania relating to the implementation of a
death sentence applies, including the method of execution and the time of execution.”
Id.
Disputes about what law, if any, federal courts are to apply when
implementing death sentences under § 3596(a) will continue to arise until this Court
provides guidance.1 Given this context, and the importance of the issue, there is a
reasonable probability at least four Justices will vote to grant certiorari to answer
the questions presented.
II.

There Is a Fair Prospect This Court Will Hold the Fifth Circuit’s Order
Was Erroneous.
The Fifth Circuit held § 3596(a)’s implementation requirements simply do not

speak to the district court’s actions in setting an execution date. Only this Court can
answer what law, if any, governs the district court’s implementation of executions.

The dispute is ongoing. Yesterday, Judge Chutkan construed ' 3596(a) in a manner
diametrically opposed to the district court’s construction in this case. “Congress
vested the U.S. Marshal with authority to oversee an execution and constrains the
exercise of that authority to the limits of relevant state law.” See In re Federal Bureau
of Prisons’ Execution Protocol Cases, Case No. 1:19-mc-00145-TSC, Dkt. 261 at 18
(D.D.C. Sept. 20, 2020).
1

5

The text of the statute requires the involvement of the district court to
ascertain relevant state law. The text makes clear Congress intended the court apply
state law when issuing orders implementing the death sentence. Moreover, the
historical judicial practice strongly supports the following conclusions: (1) state law
warrant and date-setting requirements must be applied; (2) historical practice
constituted part of the legal backdrop against which Congress enacted § 3596(a); and
(3) Congress intended continued judicial resort to state law, whether based on §
3596(a) or in complement to it. See Petition for a Writ of Certiorari at 7–12.
Moreover, even if there is no fair prospect that five Justices will interpret §
3596(a) to require reversal of the Fifth Circuit on that point, there is a fair prospect
the Court will reverse the Circuit’s ultimate conclusion no law exists or is to be
applied. The judiciary’s historical practice of filling Congress’s silence with state law
is clear. The federal courts understood that Congress’s silence did not mean the courts
were unrestrained by law or that there was no law to apply. To the extent § 3596(a)’s
directive to apply state law does not control, state law must nevertheless apply in the
absence of some Congressional directive. See Petition for a Writ of Certiorari at 9–13.
III.

Mr. Vialva Will Suffer Irreparable Harm Absent a Stay.
Mr. Vialva will suffer irreparable harm if this Court declines to grant a stay of

his September 24, 2020, execution: he will be unlawfully executed. This case does not
present a question involving the validity of Mr. Vialva’s sentence. Instead, it presents
a question of the validity of the implementation of his sentence. The harm he will
suffer from an illegal execution is irreparable. See Hill v. McDonough, 547 U.S. 573,

6

578 (2006) (granting stay of execution to petitioner challenging the manner of
execution); Nelson v. Campbell, 540 U.S. 942 (2003) (same); Wainwright v. Booker,
473 U.S. 935, 935 n.1 (1985) (Powell, J., concurring in decision to vacate stay of
execution) (“The third requirement—that irreparable harm will result if a stay is not
granted—is necessarily present in capital cases.”); Evans v. Bennett, 440 U.S. 1301,
1306 (1979) (granting stay of execution in light of the “obviously irreversible nature
of the death penalty”); O'Bryan v. Estelle, 691 F.2d 706, 708 (5th Cir. 1982) (“In a
capital case, the possibility of irreparable injury weighs heavily in the movant’s
favor.”).2
Failure to stay risks “foreclos[ing] . . . certiorari review by this Court,” which
itself constitutes “irreparable harm.” Garrison v. Hudson, 468 U.S. 1301, 1302 (1984).
Allowing the Government to execute Mr. Vialva while his petition is pending risks
“effectively depriv[ing] this Court of jurisdiction to consider the petition for writ of
certiorari.” Id. at 1302. The Government would not “be significantly prejudiced by an
additional short delay,” and a stay would serve both the public interest and judicial
economy. Id.

This Court has granted stay applications to prevent far less severe
consequences, ranging from the chilling of witness testimony to the reduction of
commercial competition. See, e.g., Hollingsworth, 558 U.S. at 195; California v.
American Stores Company, 492 U.S. 1301, 1302, 1304 (1989). Such harms pale in
comparison to the irreparable harm that will result if the Government executes Mr.
Vialva in violation of the FDPA.
2

7

IV.

The Balance of Equities and Relative Harms Weighs Strongly in Favor
of Granting a Stay.
“[I]n a close case, it may be appropriate to balance the equities, to assess the

relative harms to the parties, as well as the interests of the public at large.” Indiana
State Police Pension Trust, 566 U.S. at 960 (internal quotations omitted). These
considerations strongly favor a stay here.
First, the Government ignored its own regulations and failed to comply with
Texas law. The Government did not follow its own regulations requiring it to obtain
a court order fixing the date of Mr. Vialva’s execution. See 28 C.F.R. 26.2(a). On July
31, 2020, the Government simply announced its intent to conduct a warrantless
execution of Mr. Vialva September 24, 2020, instead of seeking an order from the
district court. The Government also failed to comply with Texas date-setting and
warrant requirements, which afford the condemned a minimum of 91 days between
notice and execution.3
Second, the Government’s history of delay undermines its interest in
timeliness. Mr. Vialva’s initial motion to vacate his sentence under 28 U.S.C. § 2255
was finally adjudicated in February of 2016. The Government took almost a full year
of extensions to respond to the petition for a writ of certiorari related to the
disposition of that motion.4 After waiting over four more years to announce its intent

The Government was actively seeking executions in June of 2020. For
example, on June 15, 2020, it gave Daniel Lee notice of his execution. There was no
impediment to the Government’s seeking a June 2020 warrant and order directing
Mr. Vialva’s September 24, 2020, execution.
3

See Docket, Vialva v. United States, No. 14-8112, available at
https://www.supremecourt.gov/search.aspx?filename=/docketfiles/14-8112.htm.
4

8

to conduct a warrantless execution of Mr. Vialva, the Government’s interest in
executing him September 24, 2020, can hardly be deemed compelling.
Third, while the Government and the public have an interest in the timely
enforcement of a [death] sentence,” Bucklew v. Precythe, 139 S. Ct. 1112, 1133 (2019),
the Government and public equally have an interest in the lawful implementation of
a death sentence. The public is not served by erratic or lawless implementation of the
ultimate penalty of death.5
Finally, this is not an instance in which a death-sentenced prisoner delays
litigation until the eve of execution. Mr. Vialva’s first awareness the Government
intended to execute him on September 24, 2020, arrived in the letter delivered by the
Warden the afternoon of July 31, 2020. Mr. Vialva filed his motion for injunctive
relief in the district court August 14, 2020. The district court ruled on his motion
September 11, 2020. Mr. Vialva filed his notice of appeal September 12 and his
Appellant’s Brief in the Fifth Circuit September 15, 2020. The Circuit issued its order
September 18, 2020 at 8:25 p.m. Mr. Vialva has pursued relief from the Government’s
violation of the FDPA and Texas law as expeditiously as possible.

The Government’s rush toward an execution disserves the public by turning
the solemn undertaking of an execution into a disgraceful scramble. Approximately
two months ago, the Government executed three men at the federal prison in Terre
Haute: Daniel Lee, Wesley Purkey, and Dustin Honken. The executions of Lee and
Purkey were utterly chaotic. Although Lee’s execution was scheduled for July 13,
2020, at 4:00 p.m., he was not pronounced dead until 8:07 the next morning after
being strapped to the execution gurney for four hours. Purkey was scheduled to be
executed July 15, 2020 at 4:00 p.m., but he was not pronounced dead until 8:19 the
next morning.
5

9

CONCLUSION
For the foregoing reasons, the Court should grant a stay of execution pending
consideration and disposition of Mr. Vialva’s petition for a writ of certiorari.
Respectfully submitted,
s/ Jared Tyler
JARED TYLER
Texas Bar No. 24042072
Tyler Law Firm, PLLC
P.O. Box 230804
Houston, Texas 77223
(832) 606-2302
jptyler@tylerlawfirm.org
SUSAN M. OTTO
Federal Public Defender
Susan_Otto@fd.org
MICHAEL LIEBERMAN
Assistant Federal Public Defender
Michael_Lieberman@fd.org
Federal Public Defender Organization
Western District of Oklahoma
215 Dean A. McGee Suite 109
Oklahoma City, Oklahoma 73102
Tel: (405) 609-5930
Counsel for Defendant Christopher André
Vialva

10

